 

 


             U.S. Department of the Interior 
                  Office of Inspector General 




           CONTROLS OVER THE
       TRANSIT BENEFIT PROGRAM
                     AT THE
     DEPARTMENT OF THE INTERIOR
                          

 

 

 

 




Report No. Y-EV-MOA-0001-2008
 

 
                      United States Department of the Interior

                                  Office of Inspector General
                                        Washington, DC 20240




                                                               March 18, 2008

Memorandum

To:            P. Lynn Scarlett
               Deputy Secretary

From:          Earl E. Devaney
               Inspector General

Subject:       Controls Over the Transit Benefit Program at the Department of the Interior
               (Report No. Y-EV-MOA-0001-2008)

        This final report presents the results of our evaluation of controls over the transit benefit
program at the Department of the Interior (Department). We found several weaknesses in
Department’s oversight over the program that leave it vulnerable to fraud, abuse, and monetary
losses. For example, we found that over half of employees who separated from the Department
in fiscal year 2007 would have been able to receive benefits after they left, and we identified
cases in which individuals who separated from the Department continued to receive benefits.
We also found transit benefit applications were missing, incomplete, and inaccurate. This report
contains six recommendations, which if implemented, should improve controls over the program.

        We would appreciate being apprised of the actions the Department takes on our
recommendations so we may track the status of their implementation and report this information
to Congress in our semiannual reports, as is required by the Inspector General Act, as amended.
Therefore, please provide our office with a written response to this report within 30 days. Your
response should state concurrence or non-concurrence with the recommendations, including
specific reasons for any non-concurrence, as well as information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

      We thank Department and bureau staff for their cooperation and assistance. If you have
any comments or questions regarding this report, please do not hesitate to contact me.

Attachment
 

WHY WE PERFORMED THIS EVALUATION

The Government Accountability Office (GAO)1 and inspectors general at multiple agencies
recently reported numerous instances of fraud, waste and abuse in agencies’ transit benefit
programs. In response to these reports, the Washington Metropolitan Area Transit Authority
(WMATA) Inspector General asked that all President’s Council on Integrity and Efficiency
(PCIE) and Executive Council on Integrity and Efficiency (ECIE) members consider conducting
an audit or evaluation of internal controls over their agencies’ transit benefit programs.

Over 5,000 Department of the Interior (DOI) employees participate in the transit benefit
program. The program costs DOI over $4 million annually2. Given the problems identified at
other agencies and the size of the program at DOI, we conducted an evaluation of controls over
benefits distributed through the DOI program. We performed our work in accordance with the
PCIE/ECIE “Quality Standards for Inspections” (see the Appendix for our methodology).



BACKGROUND ON THE TRANSIT BENEFIT PROGRAM

Congress enacted legislation3 in fiscal year (FY) 1993 that authorized selected Federal
government agencies to pay all or a portion of employees’ public transportation costs. In FY
2000, Executive Order 13150 required all agencies to implement a “transit pass transportation
fringe benefit program,” which we refer to in this report as the “program” or the “transit benefit
program.” Under this program, Federal agencies provide their employees with transit benefits,
such as tax-free transit passes for public transportation. The program is designed to encourage
Federal employees to use public transportation to commute to work and thereby reduce traffic
congestion and air pollution. The program was fully implemented throughout DOI by October
2000.

The table below shows by bureau for FY 2007 the number participants and total costs for those
participants.



                                                                  

1
 “Federal Transit Benefits Program: Ineffective Controls Results in Fraud and Abuse by Federal Workers”, GAO-07-724T, April
24, 2007.
2
 DOI was billed $4.2 million by the Department of Transportation for FY 2007. This amount includes the cost of fare media,
management fees, and other charges.
3
    Public Law 103-72.

                                                                     1

 
                            Bureau/Office                                              Number of                   Amount Billed
                                                                                      Participants
                            National Park Service                                            2,146             $       1,810,829
                            Office of the Secretary4                                           782                       679,115
                            Bureau of Land Management                                          548                       449,322
                            Fish and Wildlife Service                                          466                       346,438
                            U.S. Geological Survey                                             429                       324,729
                            Bureau of Indian Affairs                                           234                      217,196.
                            Minerals Management Service                                        165                       153,481
                            Bureau of Reclamation                                              524                       126,027
                            Office of Surface Mining                                           137                        98,865
                            DOI Total                                                        5,4065                   $4,206,002

                                                                     Table 1. FY 2007 Participants and Costs

The National Park Service (NPS) has the largest number of participants in DOI and accounts for
about 40 percent of DOI’s program. Almost half of the DOI participants work in the
Washington, DC National Capital Region. The rest of the participants are spread throughout the
country from New York to San Francisco.



WHAT WE FOUND

DOI is responsible for ensuring the integrity of its transit benefit program. However, DOI has
failed to adequately administer the distribution of transit benefits, resulting in an increased risk
of paying benefits in excess of employees’ daily commuting costs. DOI’s controls did not
identify:

        ¾ Employees who are no longer eligible to participate in the program because they left the
          Department or are no longer using public transportation, and

        ¾ Employees who receive benefits in excess of their actual monthly commuting costs.

Additionally, DOI’s controls over the initial application process are not sufficient to ensure that:

        ¾ Employees provide complete and accurate transit benefit applications, and

                                                                  

4
 These amounts include employees from the Office of Inspector General and the Office of the Solicitor, as well as 126
employees at the Advisory Council on Historic Preservation, which is not part of DOI but is serviced by DOI.
5
 The amounts in this column include employees who participated in the program at any time during FY 2007. The total for all of
DOI is less than total of individual bureaus because some employees worked for more than one bureau or office during the course
of the year.

                                                                                       2

 
       ¾ Employees applying for the transit benefit program are not also receiving subsidized
         parking.

As result, the program in DOI, like other agencies, is at increased risk of fraud, abuse, and
monetary losses.

The problems identified above stem from inadequate communication with the Department of
Transportation (DOT) and lack of adequate oversight at multiple levels within DOI and its
bureaus. DOI contracts with the DOT Office of the Secretary – Transportation Services to help
administer the acquisition and distribution of transit benefits for DOI employees. Within DOI,
the National Business Center (NBC) Division of Facilities Management Services has overall
policy responsibility for the program, is the main point of contact with DOT, and serves as the
coordinator for the Office of the Secretary. Each bureau and office also has its own transit
subsidy coordinator and agreement with DOT and is responsible for internal controls over its
employees’ eligibility and the amounts that eligible employees receive.



EMPLOYEES WHO SEPARATED FROM DOI SHOULD NOT BUT MAY STILL
BE ABLE TO COLLECT TRANSIT BENEFITS

                                              DOI’s controls did not ensure that employees who separated
                                              from the agency were removed from the program. DOI
    We identified 162 individuals in FY       follows the minimum internal control required by OMB that
    2007 who received transit benefits
                                              the employee exit clearance process include a step to
    after they separated from DOI, and
                                              remove exiting employees from the transit subsidy program.
     265 out of 415 employees who left
     DOI would have been able to pick         However, DOI’s exit clearance process focuses on the
      up transit benefits after they left.    return of excess transit benefits. DOI has not implemented
                                              strong enough control to identify and remove from the
                                              program individuals who have separated from the agency.

We identified 162 individuals in FY 2007 who received transit benefits after their separation date
from DOI. They received about $89,000 in benefits. Of these 162 individuals, 110 worked at
NPS. We noted that NPS has a large number of temporary, term, and seasonal employees, which
could account for the greater prevalence at NPS of separated employees who continued to
receive transit benefits. NPS may need to consider additional policies and controls, besides those
the Department requires, to address the large number of employees who separate throughout the
year.

To determine whether the 162 individuals inappropriately received the benefits, we randomly
selected 10 individuals who had received more than $200 during FY 2007. Of the 10 individuals
in this sample we found that:

                                                        3

 
                        ¾ 4 received transit benefits after they separated but did not return any transit tickets
                          or funds. We estimated the total amount owed by these 4 individuals is $1,970.
                          While all 4 worked for NPS, we do not believe that this problem is unique to
                          NPS.

                        ¾ 3 received transit benefits after they separated but the excess benefits were
                          returned.

                        ¾ 3 returned to employment with DOI.

DOI relies on a database of transit benefit recipients maintained by DOT to identify employees
who participate in the transit benefit program. We believe DOI could address the problem in
part by working with DOT to ensure DOT’s database contains accurate information. Currently,
DOT’s database contains many inaccuracies.

                        ¾ Of 4156 employees who left DOI in FY 2007 and participated in the program, 265
                          were either not removed from the DOT database until over 30 days after leaving
                          DOI or were not removed at all.

                        ¾ Although most of the employees who separated did not pick up transit benefits
                          after their separation, all would have been able to do so.

We also found that information on current DOI employees was often inaccurate. Inaccurate
information can make it difficult to track employees leaving, changing work addresses, or
making other changes that affect the transit benefits. Specifically, we identified cases in which:

                        ¾ the name was entered incorrectly in the DOT database (e.g., as Haywood instead
                          of Hayward);

                        ¾ the last 4 digits of the SSN were incorrect or missing – in one case the last 4 digits
                          of the phone number were entered in place of the last 4 digits of the SSN;

                        ¾ account code information was missing; and

                        ¾ the employing bureau or office was incorrect.

The inaccurate information can be attributed to data entry errors by DOT and lack of DOI
controls for detecting and correcting errors. Inaccurate information can persist in the DOT


                                                                  

6
    May include some employees who left and then returned.

                                                                     4

 
database for years. For example, the application cited above with the incorrect last 4 digits was
from 2000, and, as of the date of our evaluation, had not been corrected. The number and long
standing nature of some of the errors highlight the lack of a process for identifying and
correcting errors in the database.

DOI should check the DOT database for all separating DOI employees and confirm with DOT
that such employees are removed from the program. The National Business Center has a Transit
Subsidy De-Enrollment Form for the Office of the Secretary to document removal from the
program and notification to DOT. However, other offices do not have a similar form.
Identification and removal of departing employees is best done at the time of separation.
Regular comparisons of active DOI employees to the DOT database, as is done by some other
agencies, would provide an additional check. Finally, an electronic interface with the DOT
database would reduce manual entry errors.

OVER 60 PERCENT OF APPLICATIONS EITHER MISSING,
INCOMPLETE, OR INACCURATE

Transit applications serve as the basis for determining the
correct amount of transit benefits to provide to each           For 53 of 80 employees in our
individual participant. They also provide the basis for         sample, transit applications
monitoring whether employees are claiming and receiving         were missing, incomplete, or
a subsidy amount that equals their commuting cost.              inaccurate.
However, we identified missing applications, as well as
                                                                Of those 53 employee
applications that were incomplete and inaccurate. In total,     applications, 28 were missing
applications for 53 of 80 employees (66 percent) in our         entirely. The other 25, or
sample were missing, incomplete or inaccurate. We also          almost half of the 52
found that the applications may not require sufficient          applications DOI could
information to verify commuting costs.                          provide, were incomplete,
                                                                inaccurate, or out of date.
Neither DOI nor DOT was able to provide us with the
application forms for 28 of the 80 employees in our sample, DOI could also not provide us
nor could they provide us with requests for increased             with increase benefit
                                                                  applications for 22 of the
benefits for 22 of the participants sampled. The problem
                                                                  participants sampled.
with missing forms was especially noticeable at NPS. We
believe the inability to provide the 28 applications occurred
because neither DOI nor the bureaus have policies regarding the storage and retention of records
related to the transit benefit program. The regional transit subsidy coordinators often retain the
records and may or may not provide copies to the central bureau coordinator. In addition,
records are not necessarily transferred when coordinators change. For example, the current NPS
coordinator was not provided with records by the previous coordinator. Although DOT receives
and retains application information, DOT only keeps the information for three years.

                                                5

 
Of the 52 participants in our sample for whom DOI did have applications, 25 (or about half) of
those applications were incomplete, inaccurate, or out of date. Applications were missing
information such as the daily commuting cost, the transit service provider, and the number of
commuting days per week or month. Applications also contained inaccurate information such as
the wrong home address and incorrect total commuting costs.

In some cases, the inaccurate or incomplete information made it difficult or impossible for us to
verify the commuting costs claimed, and would likewise make it difficult for DOI officials to
verify commuting costs. For example, an application for one employee temporarily assigned to
Washington, DC showed a permanent home address in Louisiana. While the application was
legitimate, lack of a temporary Washington, DC address on the application made it impossible to
verify the commuting cost claimed at the temporary duty location. Although we did not identify
any applications with an obvious overstatement of daily commuting costs, the transit subsidy
coordinators should not have approved applications with incomplete, inaccurate, or missing
information.

We also note that applications may not request sufficient information to verify the accuracy of
commuting costs. The only information the applications currently request to confirm the daily
commuting costs are the home and work addresses. A participant could use multiple public
transportation options or a combination of public transportation and a private vehicle to get
between home and work. We believe providing documentation of commuting costs, such as a
print out with trip costs from the Trip Planner on the WMATA web site, could help to address
this challenge.

HIGH LIKELIHOOD THAT DOI IS MAKING PAYMENTS IN
EXCESS OF ACTUAL COMMUTING COSTS

DOI employees do not appear to be making adjustments for benefits they do not use each month.
None of the employees in our sample collected less than their estimated amounts, although 34
were at a high risk of collecting more than they should. DOI-wide, only 162 participants
adjusted the amounts they received downward and only 7 percent returned unused transit
benefits.

The Internal Revenue Service sets limits under 26
U.S.C. 132(f) on the value of transit subsidy an
employee may receive as non-taxable income. This
                                                              Of 4,871 participants active in the
amount was $110 per month in calendar year 2007 and
                                                              program as of the end of FY 2007,
$115 per month in calendar year 2008. Employees may
                                                              only 162 participants adjusted the
receive this maximum amount or a lesser amount if their       amounts they received downward.
monthly commuting costs are less. Although agencies
often distribute transit benefits on a quarterly basis, the

                                                  6

 
limitation applies on a monthly basis. Agencies distribute transit benefits in advance of the
period for which they are to be used. Employees who incur fewer actual costs than they
estimated should either return unused transit benefits or reduce the amount of their next pick-up.
Whether an adjustment is needed will depend upon both the actual number of days using public
transportation and the cost per day. Of the 80 employees in our sample, 34 had a relatively high
risk of collecting more than they were entitled to. We considered employees to be at a higher
risk if only a few days of not taking public transportation—due to leave, travel for work, or
driving one’s personal vehicle—would reduce their commuting costs below the monthly
maximum ($110 in 2006). For example, an employee could claim $110 in benefits every month
based on $5.50 per day and 20 days per month. If the employee took off the week of Christmas
in December 2006, which had 20 days, then he or she would only be entitled to $887 in benefits
for December. If the employee used a private vehicle or carpooled on any day during the month,
then the benefit would be further reduced.

We would expect in any given month at least some employees to take leave and require and
adjustment downward. However, none of the 34 employees in our sample who we considered
high risk adjusted the amounts they collected downward at any time during the year. We did not
verify whether these employees, in fact, had actual commuting costs in excess of benefits
claimed due to the time and effort which would have been involved. However, it is virtually
certain that some of these employees should have made an adjustment. Supervisors are often in
the best position to know whether employees should be making adjustments. Therefore, it is
important that supervisors are aware of which employees are in the program and that they take
responsibility to assist in monitoring the benefits given to employees.

In addition to analyzing the individuals in our sample, we analyzed all transit subsidy data for
DOI in FY 2007 to determine how often employees adjust their benefits downward or return
transit benefits. Our analysis showed adjustments to the amounts collected by participants to be
relatively rare. At the end of FY 2007, only 162 participants of the 4,871 program participants
(about 3 percent) adjusted the amounts they received downward. About 7 percent of
participants returned transit benefits. However, the return of transit benefits seems to be an
anomaly that is concentrated in only a few geographic areas. Of the 3408 active participants who
returned transit benefits, 70 were in Anchorage, AK which only had 105 participants, and 60
were in Philadelphia, PA where there were 299 participants. In contrast, only 21 out of 2,013
active participants in the Washington, DC area returned transit benefits.




                                                                  


7 Costs of $5.50 per day times 16 days equals $88. 


8
    This numbers does not include participants who returned transit benefits as a result of departing from the agency.

                                                                     7

 
Failure to make appropriate adjustments may be due to participants’ lack of knowledge and
understanding of the requirements as well as deliberate misrepresentation. Therefore, clear,
accurate, and readily available policies are important to help ensure that participants and
supervisors understand their responsibilities. DOI has recently made efforts, such as sending out
a Department-wide E-mail, to remind participants of the program requirements and their
responsibility. However, we found several improvements and changes that should be made to
DOI policies (as expressed in the frequently asked questions (FAQ) on the NBC website) and
forms9. Specifically:

        ¾ Incorrect Number of Working Days – DOI NBC forms and policies all suggest 22 as
          the standard number of days to be used in calculating the transit benefit. However, on
          average, there are only 20.8 working days in a month.10 The use of 22 will overstate
          commuting costs if used without modification. Many other agencies used 20 or 21 days.

        ¾ Unclear and Inaccurate Instructions on Adjustments to Amounts Received and
          Return of Excess Benefits – Instructions on how to calculate adjustments for days not
          using public transportation in the FAQ document and Subsidy De-enrollment Form are
          incorrect and contradictory. The FAQ implies that an adjustment of $5 per day should be
          made for each day not using public transportation. These instructions assume a
          commuting amount of $110 and 22 working days, which may not always be the case.
          The De-enrollment Form instructs participants to tailor their calculation by dividing the
          monthly benefit received by the number of working days rather than use a standard $5 a
          day adjustment. However, both the FAQ and the form will overstate the adjustment an
          employee should make if their actual commuting costs are higher than the monthly
          maximum (see table 3 for scenarios in which commuting costs need or do not need
          adjustment based on the total costs and number of days not commuted).

        ¾ No Supervisors’ Responsibilities Listed – The FAQ does not address the
          responsibilities of supervisors, except for stating that the supervisor should approve the
          application form. However, as one transit subsidy coordinator emphasized to us,
          supervisors perform a key role in on-going monitoring as supervisors are often the best
          position to know whether employees are abusing the program.



                                                                  

9
  Transit forms include the Public Transportation Subsidy Program Application (06/07), the Commuting Expense Worksheet
(01/08), the Transit Subsidy De-enrollment Form (07/07), and the SmartBenefits Program Application Form (07/07). Except for
the Transit Subsidy De-enrollment Form which is only for NBC/Office of the Secretary these forms are intended for DOI-wide
use.
10
  There are 52 weeks in a year times 5 days per week equals 260 weekdays, less 10 federal holidays equals 250 working days,
divided by 12 months equals 20.8 working days per month on average.

                                                                     8

 
        ¾ FAQ Not Well Organized – The FAQ has grown over time with items being added at
          the end of the document, as needed. As a result, the FAQ is not always logically
          arranged and contains some redundancies. For example, discussion of how to calculate
          the benefit amount and adjustments are contained in questions 4, 5, 12, 13, 36, and 37.
          Additionally, questions specific to the Washington, DC area are intermixed with
          questions applicable to all areas.

DOI should address the specific items discussed above. In our opinion, use of a 20 working days
as a standard is more appropriate than 21 days as use of 21 days can result in commuting costs
being overstated even if no leave is taken during the year. Additionally, DOT is developing an
on-line training. Once it is available, DOI should require participants and supervisors to
participate in the training. DOI should also continue to provide reminders to participants and
supervisors on their responsibilities.

PARKING RECORDS NOT BEING
CONSISTENTLY CHECKED

Parking records are not being consistently checked to
verify employee eligibility. Participants in the transit
benefit program are prohibited from also having              The lack of electronic searchable
federally subsidized parking. Of the bureau and             parking records at DOI inhibits the
office coordinators we interviewed, only the Office          ability of program coordinators to
of the Secretary’s coordinator indicated that he            ensure program participants do not
regularly checked parking records to ensure transit           also receive parking privileges.
subsidy applicants do not have subsidized parking
privileges11. The other bureaus primarily rely on each employee’s supervisor and the honesty of
employees to ensure employees with federally subsidized parking do not also receive transit
benefits. OMB memorandum M-07-15, “Federal Transit Benefits Program,” requires agencies to
check applicants against parking records as part of their on-going monitoring of the transit
benefit program. We believe DOI should ensure employees who apply for transit benefits do not
have parking privileges both upon application and as part of the on-going monitoring of the
program.

Some other agencies, such as DOT and the National Aeronautics and Space Administration
(NASA), have electronic parking records for at least some parking areas, which facilitates the
cross checking of parking and transit subsidy records. We identified a best practice at NASA.

                                                                  

11
  The same office is also responsible for parking at the main Interior complex in Washington, DC. The coordinator indicated
that the Office occasionally received a request from another coordinator to check whether an applicant had a parking permit, but
did not receive such requests on a regular basis.

                                                                     9

 
They have a combined database of parking and fare subsidy participants to which the personnel
responsible for administering both programs have access. The lack of such electronic searchable
parking records at DOI inhibits the ability of DOI coordinators to check those records.

EMPLOYEES NOT PARTICIPATING IN SMARTBENEFITS®

As GAO recommended, WMATA, DOT, and Federal agencies are taking steps to transition
participants into the SmartBenefits® program in the Washington, DC area. Under
SmartBenefits®, transit benefit subsidy amounts are loaded monthly onto a re-useable
SmarTrip® card rather than being distributed quarterly as paper fare transit tickets. Use of
SmartBenefits® reduces the risk of fraud and abuse because unlike paper fare transit tickets,
individual users cannot sell any excess subsidy they receive on the SmarTrip card and the card
has a maximum dollar limit. DOI requires participants in the DC area to use SmartBenefits®
unless the transit provider the participant uses does not accept SmartBenefits®. However, DOI
does not have sufficient controls to ensure that employees in the Washington, DC area move to
SmartBenefits®.

Only slightly more than half (57 percent) of the active participants in the DC area as of
                                            December 2007 are participating in SmartBenefits®.
                                            Of 38 active participants in the DC area in our sample,
   Only slightly more than half of the      we identified 5 who we believe should have been using
 active participants in the DC area as of   SmartBenefits®, and another 5 for whom we could not
  December 2007 are participating in        determine whether they should be using
             SmartBenefits®.                SmartBenefits®. The remaining participants were
                                            either participating in SmartBenefits® or used transit
                                            providers that did not accept SmartBenefits®.
Requiring all participants to re-certify or reapply for transit benefits would provide an
opportunity to review whether they should use SmartBenefits®.


WHAT THE DEPARMENT SHOULD DO

DOI is considering or has recently made changes that should reduce the problems discussed.
DOI is considering having all participants provide new applications and complete an annual
recertification process. DOI also recently started requiring new applicants to complete a Transit
Subsidy Commuting Expense form with more detailed information.

There are several additional actions that DOI can take to reduce the potential for fraud, waste,
and abuse in the transit subsidy benefit program. We recommend that DOI:

    1. Require all participants to, on an annual basis, re-certify their continued eligibility for the
       program, submit the transit subsidy commuting expense worksheet and backup

                                                  10

 
       documentation such as a WMATA trip planner print-out with their re-certification, obtain
       supervisory approval and approval from the appropriate transit subsidy coordinator on the
       forms, and remove from the program any participant who fails to re-certify.

    2. Develop procedures to ensure transit subsidy participants do not also have parking
       privileges and consider the use of electronic parking records to facilitate this process.

    3. Develop procedures for retaining and storing records related to the transit subsidy benefit
       program.

    4. Work with DOT to ensure the accuracy of DOT’s database by making regular
       comparisons between DOT’s list of program participants and active employees,
       providing DOT information on employees who separate from DOI, and considering the
       development of a DOI database of transit subsidy participants that can electronically
       interface with the DOT database.

    5. Provide annual reminders and training to employees and to supervisors on their
       responsibilities under the transit benefit program and review and update the FAQ and
       other policy documents.

    6. Develop procedures to ensure that eligible participants in the Washington, DC area utilize
       SmartBenefits®.




                                                 11

 
                                                                                                                      Appendix


METHODOLOGY

We evaluated controls over benefits distributed through the transit benefit program at DOI. Our
evaluation focused on controls at DOI and did not cover controls at DOT.

To understand the range of problems associated with transit benefits, we looked at reports on
transit subsidy programs at other agencies. We limited our evaluation of the DOI Program to the
five bureaus and offices with the highest costs for the program (see Table 1 for costs by bureau
and office). To identify and understand DOI’s transit benefit program controls, we interviewed
officials responsible for the program at these bureaus and offices12. We also conducted limited
interviews with DOT personnel.

We also obtained information from DOT on employees participating in the program in FY 2007
and selected samples of individuals to test. We randomly selected 80 individuals for testing from
three areas:

                        ¾ Individuals who picked up transit benefits after they separated from DOI and who
                          received more than $200 in benefits. We identified 89 such individuals through
                          data analysis and randomly selected 10 individuals for further testing.

                        ¾ Individuals who had picked up more than $100 in benefits during the year and for
                          which no matching record was identified in DOI’s personnel system (FPPS)13.
                          We identified 31814 such individuals through data analysis and randomly selected
                          10 for further testing.

                        ¾ Individuals who did not fit into the first two categories identified above, who
                          received more than $200 during FY 2007, and who had an estimated monthly cost
                          of $75 or more. We identified 2,521 such individuals and randomly selected 60
                          for further testing. The 2,521 individuals account for about $2.4 million of the
                          $3.2 million in benefits received by the 4,350 participants at the bureaus
                          reviewed.

                                                                  

12
  The Office of Inspector General (OIG) and the Office of the Solicitor (SOL) were included with the Office of the Secretary as
they are under the same agreement with DOT although they have separate coordinators. We conducted separate interviews with
these coordinators.
13
  Transit and FPPS information were matched using the employee’s last name and the last 4 digits of their Social Security
Number. For our sample, we found that the non-matched records were due to (1) errors in the information at DOT, (2) name
changes, and (3) inclusion of employees from the Advisory Council on Historic Preservation in the transit listing and not due to
non-employees receiving benefits.
14
  Of these 318 individuals, we later found that 126 were employees of the Advisory Council on Historic Preservation (ACHP)
and therefore not included in the listing of DOI employees.

                                                                     12

 
                                                                                                 Appendix

For these 80 participants we requested application forms, increase forms (if applicable), and
SmartBenefit® enrollment forms (if applicable). We evaluated the forms for completeness and
accuracy and compared select information in DOT’s database with information reported on the
form. Our tests of the accuracy of the DOT database were limited to information provided by
DOI. We did not test the accuracy of distribution amounts reported by DOT.

The table below summarizes the distribution of the three samples by bureau and the results for
selected attributes:

      Sample                                     Sample           Missing    Incomplete           DOT
      Group              Bureau or Office          Size        Application   Application    Inaccurate
                     Bureau of Land
    Main             Management                        8                 2              1            1
                     National Park Service            30                21              5            1
                     Fish and Wildlife Service         4
                     Office of the Secretary          12                 1              7
                     U.S. Geological Survey            6                                3            1
    Subtotal                                          60                24             16            3
    Benefits
    After            Bureau of Land
    Separation       Management                        1
                     National Park Service             9                 3              4            2
    SubTotal                                          10                 3              4            2
    No FPPS          Bureau of Land
    Match            Management                        1                 1                           1
                     National Park Service             1                                             1
                     Office of the Secretary           2
                     U.S. Geological Survey            6                                5            2
    Subtotal                                          10                 1              5            4
    Grand Total                                       80                28             25            9

                 Table 4. Sample and Selected Sample Results by Sample Group and Bureau/Office

We performed our work in accordance with the PCIE/ECIE “Quality Standards for Inspections”.




                                                      13

 
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
